                    August 25, 2000

                    KENNETH C. WEAVER
                    CHIEF POSTAL INSPECTOR

                    SUBJECT:	     Review of Area Case Investigations
                                  (Report Number OV-MA-00-003)

                    This management advisory report presents the results of
                    our review of area case investigations (Project Number
                    99CA002OV000). This review was included in our fiscal
                    year 1999 annual workload plan.

Results in Brief	   Our review revealed opportunities to strengthen the
                    management and oversight of area case investigations. We
                    found that supervisory oversight was generally limited to
                    team leaders who used informal procedures to manage
                    area case investigations at the sample divisions reviewed.
                    In addition, Inspection Service division and headquarters
                    management did not have an effective means of monitoring
                    area case investigative activities. For example, Inspection
                    Service officials did not maintain readily available records of
                    hours charged and activities performed for specific
                    investigations under area cases.

                    We suggested that the chief postal inspector issue guidance
                    and implement a system to manage and track the status of
                    area case investigations. Management agreed with our
                    suggestions and plans to initiate corrective action to
                    address the issues identified in this report. Management’s
                    comments, in their entirety, are included in the appendix of
                    this report.

Background 	        Postal inspectors use area cases as a mechanism for
                    tracking and charging time while performing investigative
                    and other mission-related activities. For investigations,
                    inspectors charge time to area cases when reviewing
                    allegations and complaints that have not reached the point
                    where it becomes possible to prosecute or take
Review of Area Case Investigations	                                                         OV-MA-00-003



                                       administrative action against a suspect. Other investigative
                                       work charged to area cases includes proactive work, such
                                       as observing mail shipments for contraband.

                                       Inspectors also charge other mission-related time to area
                                       cases. Examples of such work include conducting public
                                       presentations in preventing credit card theft, recruiting, and
                                       attending meetings.

                                       Area cases enable postal inspectors to account for their
                                       criminal investigative work hours without the administrative
                                       burden of jacketing a case.1 Specifically, area cases enable
                                       postal inspectors to account for their work hours without
                                       jacketing a case for every allegation and complaint received
                                       or every proactive and preventative measure taken.

                                       Area cases are identified by case numbers sequentially
                                       generated by the Inspection Service Data Base Information
                                       System. Area cases also are identified by a unique, three-
                                       digit case code that precedes all case numbers and
                                       describes the type of investigative or other mission-related
                                       activity.

                                       Area cases represent a significant portion of the Inspection
                                       Service’s criminal investigative efforts. From
                                       October 1, 1997, through May 31, 1999, postal inspectors
                                       charged approximately 48 percent of criminal investigative
                                       hours to area cases.

Area Case Policy	                      The Inspection Service Manual provides guidance for using
                                       area cases. The Inspection Service Manual defines an area
                                       case as the preliminary phase of an investigation. It
                                       identifies that area cases will be jacketed to a specialist or
                                       team leader in each division. The Inspection Service
                                       Manual also provides guidance for tracking suspects during
                                       area case investigations and how long area cases should
                                       remain open. The Inspection Service Manual further
                                       provides guidance for other mission-related area casework.
                                       For example, it provides instruction for crime prevention
                                       activities and identifies when to jacket a case for problems
                                       identified from such activities.




1
    Jacketing a case signifies the initiation of an investigation.



                                                                2
Review of Area Case Investigations                                                                OV-MA-00-003



Criminal Investigative           The Inspection Service classifies its criminal investigative
Area Cases                       work under various programs, such as security, fraud,
                                 internal crimes, and external crimes. A team leader
                                 assigned to a criminal investigative program may have an
                                 area case that every member of the team may charge time
                                 to while working investigations related to that program. An
                                 inspector normally works multiple investigations under an
                                 area case. An inspector working investigations under area
                                 cases may find allegations that are unsubstantiated. In
                                 these instances, the inspector may close or suspend the
                                 investigations without formally documenting the
                                 proceedings. Inspectors do not charge time to area cases
                                 for certain violations, such as robberies and detonation of
                                 mail bombs. Investigations are immediately jacketed for
                                 these types of offenses.

Case Jacketing                   If an investigation under an area case results in evidence
                                 gathered to support potential administrative or prosecutive
                                 action against a suspect, the inspector requests that the
                                 investigation be jacketed. When an area case investigation
                                 is jacketed, the Inspection Service Data Base Information
                                 System generates a new case number, resulting in the
                                 investigation carrying a unique identifier.

                                 The Inspection Service Manual requires a greater level of
                                 management control by the field offices over jacketed cases
                                 than is required for area cases. Examples of this control
                                 include reviews of case files and requirements for case
                                 activity and specialty reports to be entered into the
                                 Inspection Service Data Base Information System. This
                                 level of control requires that inspectors document their
                                 investigative progress. Inspection Service management
                                 does not normally apply these controls to area case
                                 investigations.2 Rather, management allows team leaders
                                 to institute the controls they deem necessary for area case
                                 investigations. Such controls include regular meetings with
                                 team members to discuss work in progress, planned
                                 investigative approaches, and instances from which to
                                 jacket cases.




2
 Management controls for activities under area and jacketed cases are the same in some instances, such as
obtaining evidence, making payments to informants, and performing electronic surveillance.




                                                       3
Review of Area Case Investigations                                                                      OV-MA-00-003



Objective, Scope, and              Our objective was to evaluate the management and
Methodology                        oversight of area case criminal investigations. We reviewed
                                   299 judgmentally selected criminal investigations under
                                   34 judgmentally selected area cases in the Miami and
                                   Northeast divisions. We examined the contents of
                                   investigative files to determine procedures used by

                                   Inspectors and to evaluate management oversight related to
                                   area case investigations. We interviewed Inspection
                                   Service Headquarters officials, division managers,3 team
                                   leaders, and inspectors at 11 field offices in the 2 divisions.
                                   We also examined inspectors’ diaries and reviewed time
                                   reports.

                                   This review was conducted from February 1999 through
                                   July 2000 in accordance with the President’s Council on
                                   Integrity and Efficiency, Quality Standards for Inspections.
                                   We discussed our conclusions and observations with
                                   appropriate management officials and included their
                                   comments where appropriate.

Management and                     Opportunities exist to strengthen the management and
Oversight                          oversight of area case investigations. We found that team
                                   leaders at the sample divisions reviewed relied on informal
                                   procedures to manage area case investigations since there
                                   was little published guidance addressing the process.4 We
                                   also found that inspectors could perform many of the same
                                   investigative techniques under area case investigations
                                   without the controls required if the techniques were
                                   performed under a jacketed investigation.

                                   The absence of procedures and controls allowed area case
                                   investigations to proceed with limited management
                                   oversight. Specifically, we noted that:

                                   1. Investigative files did not always provide clear
                                      investigative trails, making subsequent reviews difficult.

                                   2. Inspectors were not required to document progress
                                      reports on area case investigations, leaving no readily
                                      available summary of work, including significant work.

3
 Division managers are considered to be those at a field division at the assistant inspector in charge level and higher.
4
 The Inspection Service Manual provides guidance for selected activities that could be performed under area cases
including obtaining evidence, providing payments to informants, and performing electronic surveillance.



                                                           4
Review of Area Case Investigations	                                                  OV-MA-00-003




                               3. Area case investigations could be suspended or
                                  terminated without reporting the results of the
                                  investigative efforts.

                               4. Supervisors were generally not required to periodically
                                  review most ongoing area case investigative activities.

                               Further, we identified that management above the team
                               leader level did not have a ready source of information to
                               identify and control area case investigative activities.
                               Rather, management had to contact the responsible team
                               leader or inspector to obtain the status of investigative
                               efforts and case progression.

Investigative Trail	           Team leaders at the sample divisions reviewed worked with
                               inspectors to determine if criminal activity occurred.
                               However, headquarters and field office management above
                               the team leader level had no readily available record of the
                               investigative effort for area case investigations. Inspectors
                               generally had documentation for each investigation.
                               However, the manner in which the documentation was
                               maintained varied within each individual area case and
                               among separate area cases. As a result, there was not a
                               clear and consistent investigative trail for area case activity.

Progress Reports 	             The same investigative techniques may be performed in
                               area case investigations as in jacketed case investigations.
                               We noted that inspectors at the sample divisions reviewed
                               gathered personal information related to drivers licenses,
                               medical records, social security information, bank
                               statements, credit reports, phone records, and credit card
                               purchases during the performance of area case
                               investigations. Inspectors also conducted an undercover
                               operation, obtained mail covers, and conducted a trash
                               cover.

                               While headquarters management required detailed
                               reporting of investigative efforts under jacketed case
                               investigations, there were no such requirements for area
                               case investigations. As a result, headquarters’
                               management and field management above the team leader
                               level had no ready means to monitor the same efforts
                               conducted under area cases. Further, management at all
                               levels did not have ready access to the progress of each



                                                  5
Review of Area Case Investigations                                                        OV-MA-00-003



                                     investigation, hours spent per investigation, and work
                                     deferred.

Suspended or                         Inspectors submit their final report and/or case jacket to
Terminated                           their immediate supervisor for review and approval for
Investigations                       jacketed investigations. Team leaders and/or inspectors in
                                     charge review and ensure that all official files for cases to
                                     be closed are prepared and reviewed in detail before they
                                     are closed. However, no such requirements exist for
                                     inspectors conducting investigative procedures under area
                                     cases. When supervisors are not required to approve the
                                     closure or suspension of area case inquiries that employ
                                     major efforts or investigative procedures, there is an
                                     increased risk that Inspection Service resources are not
                                     being used effectively and decisions related to the initiation
                                     of cases and suspension of inquiries are not being
                                     appropriately made.

Supervisory Reviews                  Team leaders met with supervisors to review work-in-
                                     progress. Management stated that these meetings
                                     sometimes included area case investigations. However,
                                     management was unable to provide us with specific case
                                     information or documentation related to the discussions and
                                     review of area cases.

                                     Inspection Service officials identified that team leaders’
                                     supervisors participated in domicile reviews.5 However, the
                                     procedures used in these reviews, as well as the biannual
                                     quality assurance reviews, primarily address jacketed case
                                     investigations. We further identified that sufficient guidance
                                     did not exist for team leaders to exercise supervision over
                                     area case investigations. Specifically, the Inspection
                                     Service Manual provided little guidance for supervising area
                                     case investigations. We found no other Inspection Service
                                     resources that provided such guidance.




5
    Domicile reviews are quality assurance reviews conducted internally by a division.



                                                             6
Review of Area Case Investigations	                                                                   OV-MA-00-003



Tracking System                   As a law enforcement agency, the Inspection Service has
                                  the authority to obtain information not available to the public.
                                  A tracking system would improve oversight, allow managers
                                  at all levels to match staff workload, aid in strategic
                                  planning, and assist in improving area case processes.
                                  Further, a tracking system would help provide a means of
                                  control to ensure that citizens’ rights and privacy are
                                  protected when such information is collected.

                                  Approximately 48 percent of the Inspection Service’s
                                  criminal investigative effort from October 1, 1997, through
                                  May 31, 1999, was expended for area case investigations.6
                                  This amount of work represents a significant effort in
                                  investigative hours and resources. A tracking system would
                                  assist in keeping headquarters and field office managers
                                  informed of area cases and provide instantaneous access to
                                  area case investigative efforts. The tracking system could
                                  be part of an existing or planned system, and would not
                                  necessarily require jacketing a case for every matter
                                  investigated.

Suggestion                        We offer the following suggestions:

                                  The chief postal inspector should:

                                  1. Establish guidance to govern the management and
                                     oversight of area cases. Specifically, the guidance
                                     should:

                                      •	 Establish standards for documenting and periodically
                                         reporting the progress of all area cases.

                                      •	 Require written supervisory approval for the closure
                                         or suspension of all area case investigations.

                                      •	 Require periodic supervisory review of all area cases.

Management’s 	                    The chief postal inspector agreed with our suggestion and
Comments 	                        identified that during fiscal year 2001, management will
                                  devise, develop, and implement a consistent policy for all
                                  area cases. The chief postal inspector further identified that
                                  management will consider a variety of issues, such as new

6
 This percentage is based on criminal investigative work hours provided by Inspection Service officials, excluding
hours associated with tort investigations and crime prevention.



                                                          7
Review of Area Case Investigations	                                                OV-MA-00-003



                               subject codes, opening and closing conventions, case file
                               maintenance, investigative summary logs, periodic written
                               progress reports, and supervisory reviews, during domicile
                               reviews and self-assessments.

Evaluation of                  Management’s planned actions are responsive to our
Management’s                   suggestion and should help strengthen the management
Comments                       and oversight of area case investigations.

Suggestion                     2. Implement a tracking system, which could be a part of
                                  an existing or planned system, for area case
                                  investigations that maintains data on investigative hours,
                                  milestones, and investigative techniques. The system
                                  should also match staff to workload, aid in strategic
                                  planning, and assist in improving area case processes
                                  and oversight.

Management’s 	                 The chief postal inspector agreed with our suggestion and
Comments 	                     identified that area case policy will utilize the Inspection
                               Service Database Information System, with necessary
                               enhancements, to strengthen area case and program
                               management.

Evaluation of                  Management’s planned actions are responsive to our
Management’s                   suggestion and should help support the monitoring of area
Comments                       case investigative activities.

                               We appreciate the cooperation and courtesies provided by
                               your staff during the review. If you have any questions,
                               please contact Dennis Riley, acting director, or me at (703)
                               248-2300.



                               Debra D. Pettitt
                               Acting Assistant Inspector General
                                for Oversight and Business Evaluations

                               cc: 	James K. Belz
                                    Kenneth W. Newman
                                    John R. Gunnels




                                                 8
Review of Area Case Investigations                         OV-MA-00-003



                         APPENDIX. MANAGEMENT'S COMMENTS




                                        9
Review of Area Case Investigations        OV-MA-00-003




 Major Contributors to
 This Report




                                     10
